MEMORANDUM FOR:                RAYMOND J. UHALDE
                               Deputy Assistant Secretary
                                For Employment and Training


FROM:                          JOHN J. GETEK
                               Assistant Inspector General
                                For Audit


SUBJECT:                       Immediate Action Needed on Privacy and
                               Procurement Issues Associated with Job Corps
                               Student Transportation System
                               Final Letter Report No. 09-01-202-03-370


The Office of Inspector General (OIG) is currently auditing the system used to transport Job
Corps students between home and the Job Corps Centers. As part of this audit, we
focused on the services provided by Transcor, Inc. Transcor, a private-for-profit travel
agency, is the company that the Job Corps program uses to make the majority of student
transportation arrangements.

We found that for over 15 years Transcor has provided a valuable service by helping
hundreds of thousands of students travel between their homes and the Centers. But, we
found two issues which require immediate Job Corps management scrutiny. We are
continuing to audit the system used to move students between home and Job Corps
Centers. We will provide future audit reports on the overall effectiveness of the current
system. However, because of the significance of the two issues identified to date, we are
reporting them now, rather than waiting until we conclude our audit tests of the student
travel process.




Specifically:


U.S. Department of Labor - Office of Inspector General
         1.    We find no valid, legal authority which allows the continuing use of Transcor
               as the primary provider of student transportation arrangements (page 5).

         2.    Staff from the Job Corps Data Center, Job Corps Centers, and Transcor
               have released student privacy information in violation of the Privacy Act of
               1974 (5 U.S.C. § 552a) and the Social Security Act
               § 205(c) (page 6).

We believe both issues could result in major legal consequences adversely impacting the
effective operation of the Job Corps program, and placing the Department at financial risk.

On February 20, 2001, we issued a draft report recommending the Employment and
Training Administration (ETA), Office of Job Corps take immediate action to:

         •     find an alternative strategy to provide travel arrangements for students;

         •     investigate procurement requirements to ensure future commitments to travel
               providers are valid; and

         •     halt the unauthorized release of student social security numbers by staff of
               the Job Corps Data Center, Job Corps Centers, and Transcor.
On March 23, 2001, you responded to the draft report, and agreed with the
recommendations. You stated your intention to review current practices and develop
strategies to make improvements in the way student travel arrangements are made and to
strengthen oversight capabilities. You also stated Job Corps will implement procedures
by March 30, 2001, to stop the release of students’ social security numbers. A copy of
your response is included as Attachment A.




                    INTRODUCTION AND BACKGROUND
The OIG is auditing the Job Corps student travel process. During the first phase of the
audit, we are focusing on the services provided by Transcor Inc., a private-for-profit travel
agency.

U.S. Department of Labor - Office of Inspector General


                                                 2
Job Corps Program
The Department of Labor (DOL), Employment and Training Administration (ETA), Office of
Job Corps is responsible for administering the Job Corps program throughout the country.
Currently the program is authorized under Title I, Subtitle C of the Workforce Investment
Act (WIA) of 1998.

The Job Corps program is operated at 119 centers in 46 states, the District of Columbia,
and Puerto Rico. Each year the program serves more than 65,000 students at an annual
cost of more than $1 billion.

Job Corps is a full-time, year-around residential program that offers academic education,
vocational training, work experience, counseling, and other supportive services to low-
income youth. One of the supportive services provided to the students is transportation
from their homes to Job Corps Centers. Government paid trips are arranged for initial
enrollment, termination from the program, Summer break, Winter break, emergency leave,
and administrative leave. Government furnished transportation is authorized in the WIA
regulations (20 CFR 670.600).

Transcor Inc.
The Office of Job Corps began a business relationship with Transcor in 1984 during a pilot
project arranged by the Atlanta Regional Job Corps Office. Transcor was responsible for
issuing bus tickets for new enrollees to travel from their homes to Centers in the Atlanta
Region. On November 8, 1987, Office of Job Corps entered into a Memorandum of
Agreement (MOA) with Transcor which formalized and expanded the responsibilities of
Transcor. This MOA, which has not been modified or updated, made Transcor responsible
for issuing and accounting for transportation tickets provided to students requiring
transportation. Most of the tasks identified in the MOA Scope of Work are obsolete, and
do not reflect current operations.

Although Transcor is not paid directly by the DOL, it receives commissions from air, bus,
and rail carriers when it orders tickets for Job Corps students. As an accredited travel
agency, Transcor earns a commission (approximately 5 percent) based on the price of
each air ticket ordered. As a Greyhound Bus Company agent, Transcor earns a 10
percent commission based on the price of each bus ticketed ordered.

During calendar year 2000, Transcor billed over $18 million for air, bus, and rail tickets to
the Job Corps Regional Office Government Citibank credit cards.

Transcor issues air, bus, and rail tickets, and prepares itineraries based on requests from
Job Corps Center staff. The paper (coupon) airline, bus, and rail tickets along with
itineraries are sent via Federal Express to admissions counselors or staff at the Job Corps
Centers. Itineraries for electronic airline tickets are faxed to admissions counselors and


U.S. Department of Labor - Office of Inspector General


                                                 3
Job Corps Center staff.

Transcor uses Worldspan, an airline reservation system, to make airline reservations.
Transcor charges the cost of each airline ticket to Government Citibank credit card
accounts issued to the Job Corps Regional Offices.

Transcor, as a Greyhound Bus Company agent, directly issues bus tickets. Transcor
charges the costs of Greyhound bus tickets issued each month (less refunds) to
Government Citibank credit card accounts issued to the Job Corps Regional Offices.


                OBJECTIVE, SCOPE AND METHODOLOGY
Our overall audit objective is to determine if the current process to move students between
home and Job Corps Centers is effective. As part of this audit, we focused on the
services provided by Transcor, as the primary provider of student transportation services.

Our audit work was conducted in accordance with Government Auditing Standards issued
by the Comptroller General of the United States. We applied procedures in accordance
with performance audit fieldwork standards. This phase of the audit
is limited to specific aspects of the Transcor/Job Corps business arrangement. Our work
to date should not be interpreted as a performance audit of either Transcor or the Job
Corps student transportation system.

We conducted audit fieldwork from October 2000 to January 2001. During fieldwork, we
interviewed staff from the following entities: Job Corps National Office, Job Corps
Regional Office, Job Corps Centers, ETA’s Division of Contracting Services, and
Transcor. We also reviewed pertinent documentation including: transportation cost
information provided by Transcor, air and bus tickets issued by Transcor, Citibank monthly
billing statements provided by Job Corps Regional Offices, Job Corps policies and
procedures, correspondence between

Office of Job Corps and Transcor, and prior OIG audit reports on Job Corps student
transportation systems.

We are continuing to audit the process used to transport students between home and Job
Corps Centers. We will provide future reports on the effectiveness of this process.

We discussed the following two issues of immediate concern with the Job Corps Director
and other ETA and Job Corps officials on February 9, 2001.




U.S. Department of Labor - Office of Inspector General


                                                 4
                                     AUDIT RESULTS
                                             For 15 years, the Office of Job Corps has used
 The existing Memorandum of
                                             Transcor as the travel agency responsible for
 Agreement between Transcor                  issuing and accounting for transportation tickets
 and Job Corps is not a valid,               for Job Corps students. Transcor has provided
 legal basis for allowing                    service to hundreds of thousands of students. By
 continued use of Transcor as                providing this service Transcor receives funds
 the primary provider of student             (commissions) from air, bus, and rail carriers used
 transportation arrangements.                to transport the Job Corps students. During
                                             calendar year 2000, Transcor arranged over $18
                                             million of student transportation tickets.

The basis for this continuing relationship is documented via a 1987 MOA signed by the
then Job Corps Director and the former Transcor President. The MOA has not been
modified or updated since issuance. As a result, most of the tasks to be carried out by
Transcor, as identified in the Scope of Work, are obsolete and do not reflect current
operations. Further, we do not believe the MOA is an appropriate legal instrument to
establish and uphold the Transcor, Job Corps business arrangement. Our research finds
no language in the program statutes, Department of Labor Manual Series (DLMS),
Federal Acquisition Regulation (FAR), or Department of Labor Acquisition Regulation
(DOLAR) which legitimizes the use of an MOA.

Conversely, the DOLAR at 2901.103 states that, “The FAR and DOLAR apply to all DOL
acquisitions of supplies and services which obligate appropriated funds unless otherwise
specified in this regulation.” We found nothing in the “exclusions” at 2901.103-70 or
“deviations” at 2901.4 which would apply to Transcor. Additionally, the guidance at DLMS
850, Use of Contracts, Grants, and Cooperative Agreements, indicates at 855(d)(4) that
procurement contracts will normally be used to obtain professional services, such as
Transcor. And, competitive requirements at 41 U.S.C. § 253 clearly indicate there should
be full and open competition for procurement of these services. Therefore, the existing
arrangement between Job Corps and Transcor is not a valid contract.

                                               Failure to adhere to procurement requirements
                                               places the program and Department at risk from
 Staff from the Job Corps Data                 protests from other interested businesses
 Center, Job Corps Centers, and                providing the same types of services.
 Transcor have released student
 social security numbers in
 violation of the Privacy Act of               The Job Corps Data Center (JCDC) daily
 1974 (5 U.S.C. § 552a) and the                transmits a data file to Transcor which contains
                                               student information needed to make travel


U.S. Department of Labor - Office of Inspector General


                                                 5
arrangements for new enrollees such as: student name, travel mode, arrival date, origin
city, and destination city. The data file also includes the student social security number
which is not needed to obtain air and bus tickets.

Additionally, Job Corps Center staff includes the student social security number when they
fax Transcor travel requests for students traveling home when terminating from the
program and for Summer break, Winter break, emergency leave, and administrative leave
purposes.

Transcor staff enters the student social security number in the Worldspan airline
reservation system when booking air reservations and print the number on the airline
tickets. Transcor staff also prints the student social security number on the Greyhound bus
tickets. Consequently, the social security numbers of thousands of students are
unnecessarily exposed to the general public.

The DOL’s notice of systems of records published in the Federal Register on September
23, 1993, pursuant to the Privacy Act of 1974, identifies routine uses of records
maintained in the Job Corps Student Records (DOL/GOVT-2) system, including
categories of users and the purposes of such uses. Transcor is not identified as a user
and social security numbers are not needed to purchase air, bus, or rail tickets. Violations
of the Privacy Act (5 U.S.C. §552a) can result in civil remedies (subsection g) and criminal
penalties (subsection i).

Additionally, the Social Security Act, § 205(c), declares that social security numbers
obtained by authorized persons pursuant to any provision of law, enacted on or after
October 1, 1990, are confidential and cannot be disclosed.


                                       CONCLUSION
We believe both issues could result in major legal consequences which would adversely
impact the effective operation of the Job Corps program, and could place the Department
at financial risk. Violations of Federal procurement laws and regulations can result in an
interested party filing a protest and the subsequent awarding of funds to cover the cost of
filing and pursuing the protest, including attorney fees. Violations of the Privacy Act can
result in civil remedies and criminal penalties. Individuals (students) adversely affected
may bring a civil action against the Department of Labor/Secretary of Labor.
Consequently, we believe it would be prudent for Job Corps management to initiate
immediate action to rectify both issues.

                                 RECOMMENDATIONS


U.S. Department of Labor - Office of Inspector General


                                                 6
We recommend the Assistant Secretary for Employment and Training direct Job Corps
management to immediately:

         •     find an alternative strategy to provide travel arrangements for students;

         •     investigate procurement requirements to ensure future commitments to travel
               providers are valid; and

         •     halt the unauthorized release of student social security numbers by staff of
               the Job Corps Data Center, Job Corps Centers, and Transcor.


ETA Response - Agency officials agree with the recommendations and intend to review
current practices and develop strategies to make improvements in the way student travel
arrangements are made and to strengthen oversight capabilities. Agency officials also
intend to implement procedures by March 30, 2001, to stop the release of students’
social security numbers by the Job Corps Data Center, Job Corps Centers, and
Transcor. A complete copy of the response can be found in Attachment A.

We concur with your intended actions and consider the recommendations resolved. To
close these recommendations, please provide us documentation when the corrective
actions are completed.

We appreciate the cooperation and assistance provided by your staff and center
contractor staff during the audit. If you have any questions concerning this report, please
contact Linda Darby, Regional Inspector General for Audit, in San Francisco at (415) 975-
4030.


Attachment




U.S. Department of Labor - Office of Inspector General


                                                 7
